No.:

In the Supreme Court of the United
States
Phillip Blough
Petitioner,
v.
The United States of America,
Respondent.

On Petition for Writ of Certiorari to the U.S. Court of
Appeals for the Sixth Circuit

Motion to Proceed In Forma Pauperis
Rhys B. Cartwright-Jones
42 N. Phelps St.
Youngstown, OH 44503-1130
330-757-6609, tel.
866-223-3897, fax
rhys@cartwright-jones.com
Counsel for Petitioner

The petitioner asks leave to file the
accompanying petition for a writ of certiorari
without payment of costs and to proceed in forma
pauperis.
The petitioner has previously been granted
leave to proceed in forma pauperis in the U.S. Court
of Appeals for the Sixth Circuit. A copy of the order
of appointment is attached. [Exh. 1.]
Wherefore, the petitioner prays this motion
be granted.
Respectfully Submitted,
Rhys B. Cartwright-Jones
Counsel of Record
42 N. Phelps St.
Youngstown, OH 44503-1130
330-757-6609, tel.
216-272-1938, cell.
866-223-3897, fax
rhys@cartwright-jones.com
Counsel for Petitioner

